     ASSESSMENT REPORT
           12-22




Webtrust for Certification Authority
      September 18, 2012
Date
September 18, 2012
To
Chief Information Officer
From
Inspector General
Subject
Assessment Report - Webtrust for Certification Authority
Report Number 12-22

Enclosed please find the subject final report. The Office of the Inspector General
administered a contract with Ernst & Young LLP (E&Y) to provide an opinion on the
Government Printing Office’s (GPO) assertions regarding their certification
authority process for July 1, 2011 through June 30, 2012. E&Y conducted their work
in accordance with attestation standards established by the American Institute of
Certified Public Accountants.

E&Y concluded that GPO’s assertion is fairly stated in all material respects. E&Y is
responsible for the attached report and the opinion expressed therein.

We appreciate the courtesies extended to E&Y and to our audit staff. If you have any
questions or comments about this report, please do not hesitate to contact me at
(202) 512-0039.




Michael A. Raponi
Inspector General

Enclosure

cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
US Government
Printing Office
Report of Independent Accountants

Webtrust for CA

For the Period July 1, 2011 to June 30, 2012
                                              Table of Contents


Report of Independent Accountants ............................................................................. 1

Management Assertion ................................................................................................ 3




1208-1385105
                                                                     Ernst & Young LLP
                                                                     Westpark Corporate Center
                                                                     8484 Westpark Drive
                                                                     McLean, VA 22102
                                                                     Tel: + 1 703 747 1000
                                                                     Fax: +1 703 747 0100
                                                                     www.ey.com




                          Report of Independent Accountants

To the Inspector General of the United States Government Printing Office and the
Management of the United States Government Printing Office Certification Authority:

We have examined the assertion by the management of the U.S. Government Printing Office
(GPO) that in providing its Certification Authority (CA) services known as GPO Public Key
Infrastructure Certification Authority (GPO-CA) in Washington, D.C. for the Root CA: GPO-CA
during the period July 1, 2011 through June 30, 2012, management of GPO has:

   •   disclosed its Business, Key Life Cycle Management, Certificate Life Cycle Management,
       and CA Environmental Control practices in its
       •   Certification Practice Statements and
       •   Certificate Policy
   •   maintained effective controls to provide reasonable assurance that
       •   GPO’s Certification Practice Statements are consistent with its Certificate
           Policy
       •   GPO provides its services in accordance with its Certificate Policy and
           Certification Practice Statements
   •   maintained effective controls to provide reasonable assurance that
       •   the integrity of keys and certificates it manages is established and
           protected throughout their life cycles;
       •   the integrity of subscriber keys and certificates it manages is established
           and protected throughout their life cycles;
       •   the Subscriber information is properly authenticated; and
       •   subordinate CA certificate requests are accurate, authenticated and
           approved
   •   maintained effective controls to provide reasonable assurance that
       •   logical and physical access to CA systems and data is restricted to
           authorized individuals;
       •   the continuity of key and certificate management operations is maintained;
           and
       •   CA systems development, maintenance and operations are properly
           authorized and performed to maintain CA systems integrity

for the CA services known as GPO-CA, based on the AICPA/CICA Trust Services Criteria for
Certification Authorities.


                                                                                                                     1
                                                                     A member firm of Ernst & Young Global Limited
GPO’s management is responsible for its assertion. Our responsibility is to express an opinion
on management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants, and accordingly, included (1) obtaining an
understanding of GPO’s key and certificate life cycle management business practices and its
controls over key and certificate integrity, over the authenticity and privacy of subscriber and
relying party information, over the continuity of key and certificate life cycle management
operations, and over the development, maintenance, and operation of systems integrity;
(2) selectively testing transactions executed in accordance with disclosed key and certificate
life cycle management business practices; (3) testing and evaluating the operating
effectiveness of the controls; and (4) performing such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a reasonable basis
for our opinion.

The relative effectiveness and significance of specific controls at GPO and their effect on
assessments of control risk for subscribers and relying parties are dependent on their
interaction with the controls, and other factors present at individual subscriber and relying
party locations. We have performed no procedures to evaluate the effectiveness of controls
at individual subscriber and relying party locations.

Because of the nature and inherent limitations of controls, GPO’s ability to meet the
aforementioned criteria may be affected. For example, controls may not prevent, or detect
and correct, error, fraud, unauthorized access to systems and information, or failure to
comply with internal and external policies or requirements. Also, the projection of any
conclusions based on our findings to future periods is subject to the risk that changes may
alter the validity of such conclusions.

In our opinion, for the period July 1, 2011 through June 30, 2012, GPO management’s
assertion, as set forth in the first paragraph, is fairly stated, in all material respects, based on
the AICPA/CICA Trust Services Criteria for Certification Authorities.

The WebTrust seal of assurance for Certification Authorities on GPO’s Web site constitutes a
symbolic representation of the contents of this report and it is not intended, nor should it be
construed, to update this report or provide any additional assurance.

This report does not include any representation as to the quality of GPO's services beyond
those covered by the Trust Services Criteria for Certification Authorities, or the suitability of
any of GPO’s services for any customer's intended purpose.





August 20, 2012




                                                                                                                        2
                                                                        A member firm of Ernst & Young Global Limited
3
4
5
